                    Department of Justice
                       United States Attorney Stephen R. Wigginton
                                Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                             CONTACT: James L. Porter
MONDAY, NOVEMBER 7, 2011                                          PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/

 FORMER INMATE RECEIVES 144 MONTH SENTENCE FOR ROLE IN IDENTITY
     THEFT, BANK FRAUD SCHEME CONDUCTED FROM BEHIND BARS

       A former inmate has been sentenced in federal court in East St. Louis to a 144 month term
in prison following his plea of guilty to participating in an identity theft scheme while incarcerated,
the United States Attorney for the Southern District of Illinois, Stephen R. Wigginton, announced
today. Danwine Dewayne Renard, 47, formerly of the Missouri Department of Corrections, was also
ordered to pay $122,943.72 in restitution and a $49,000 forfeiture judgment. Following service of
the term of imprisonment, Renard will serve a five year term of supervised release.
       On July 27, 2011, Renard entered a guilty plea to a four count superseding indictment
charging Conspiracy to Commit Mail, Wire and Bank Fraud; Aiding and Abetting Bank Fraud; and
two counts of Aiding and Abetting Aggravated Identity Theft.
       At the time of his plea, Renard entered into a factual stipulation which indicated that
beginning in approximately July, 2008, and continuing until on or about November 17, 2010, in
Madison and St. Clair Counties, and elsewhere, Renard, acting with others, including Selena Marie
Bradford (a/k/a Selena Renard), engaged in a scheme involving identity theft, fraudulent
identification documents, mail fraud, wire fraud, and bank fraud. Renard’s role in the conspiracy
primarily consisted of providing advice, guidance, and encouragement via interstate prison phone
calls and by way of U.S. Mail to his co-conspirators, including Bradford. Bradford would obtain
genuine state identification documents in the names of real individuals, and she and a co-conspirator
would open bank accounts in those names. The balances of the fraudulently opened bank accounts
would be inflated by depositing checks from other fraudulently opened bank accounts. Then funds
would be withdrawn, often by way of ATMs, though there were insufficient funds to cover the
withdrawals. Often, insufficient funds checks would be passed in order to obtain merchandise. A
co-conspirator would produce fake payroll checks drawn on some of the fraudulently opened
accounts and would cash them at various locations. Funds obtained during the scheme were used
for a variety of purposes, including paying living expenses, paying costs associated with perpetrating
the scheme, purchasing merchandise, and for funding Renard’s prison trust account. As detailed in
the factual stipulations, during several transactions, to include the acquisition of food stamp benefits
in a victim’s name, Renard was on the jail phone with Bradford, providing her encouragement and
guidance.
        Renard has been in federal custody since his arraignment on December 6, 2010. Bradford
is currently serving a 132 month federal sentence and was ordered to pay restitution in the amount
of $122,943.72 as a result of her role in the scheme.
        The investigation was conducted by the United States Postal Inspection Service, the
Edwardsville Police Department, the Broken Arrow, Oklahoma, Police Department, the Social
Security Administration, Office of Inspector General and the Illinois Department of Human Services,
Office of Inspector General. The case is being prosecuted by Assistant United States Attorneys
Suzanne M. Garrison and Michael J. Quinley.
                                                  ###
